   June 26, 2002




Information
Technology

Air National Guard Decision on the
Asynchronous Transfer Mode
Installation Contract
(D-2002-120)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit of the Audit Followup and
Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424 -9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.
          Office of the Inspector General of the Department of Defense

Report No. D-2002-120                                                     June 26, 2002
 (Project No. D2002AL-0050)

       Air National Guard Decision on the Asynchronous Transfer
                      Mode Installation Contract

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by all who are
interested in the contracting procedures of the Air National Guard. It addresses the Air
National Guard’s right to make a unilateral decision not to exercise an option on a
contract.

Background. We performed this audit in response to a request from Congressman
Roscoe G. Bartlett. The request was based on information the Congressman received
from both the Air National Guard and Digicon Corporation regarding the Air National
Guard’s decision not to exercise the final option years on a contract between the two
parties. In June 2000, the contracting officer awarded a $32.2 million firm-fixed-price
contract with one base year and three 1-year options to Digicon Corporation to establish
an Asynchronous Transfer Mode network at 90 Air National Guard flying units.

The Air National Guard sent a memorandum dated September 21, 2001, to the
contracting officer with its decision to not exercise the final option years of the Digicon
Corporation contract. The contracting officer then officially notified the Digicon
Corporation that the Air National Guard would discontinue the terms of the lease as of
October 31, 2001.

Results. On October 9, 2001, the contracting officer informed the Digicon Corporation
that the Air National Guard decided to not exercise the option years because it desired to
pursue a technology refresh under a new contract and because it was not able to develop
a mutually beneficial working relationship with the Digicon Corporation. However,
through testimonial evidence, it was determined that the reason the Air National Guard
decided to not exercise the remaining option years was the need for a standard network at
all 90 flying units, which required an equipment upgrade. Conflicting statements
between the Air National Guard and the Digicon Corporation showed that there was
clearly a disagreement between the two entities as to the reasons for the Air National
Guard decision. Notwithstanding the conflicting statements, the Air National Guard
made the decision to not exercise the option years and was within its rights, as provided
by the Federal Acquisition Regulation and the option clauses incorporated into the
contract, to make that unilateral decision.

Management Comments. We provided a draft of this report on June 7, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                  i


Introduction
     Background                                    1
     Objective                                     2
     Decision To Not Exercise Final Option Years   3

Appendixes
     A. Scope and Methodology
          Scope                                    5
          Methodology                              5
          Prior Coverage                           6
     B. Report Distribution                        7
Background

    We performed this audit in response to a request from Congressman Roscoe G.
    Bartlett. The request was based on information the Congressman received from
    both the Air National Guard and the Digicon Corporation (Digicon) regarding the
    Air National Guard decision to not exercise the final option years on a contract
    between the two parties.

    Air National Guard Organization and Mission. The National Guard Bureau, a
    joint bureau of the Departments of the Army and Air Force, administers the Air
    National Guard. The Air National Guard has both a Federal and State mission.
    The Federal mission is to maintain well-trained, well-equipped units available for
    prompt mobilization during war and provide assistance during national
    emergencies. The State mission is to provide protection of life and property, and
    to preserve peace, order, and public safety.

    Asynchronous Transfer Mode Network. The Asynchronous Transfer Mode is a
    technology that provides a common format for services with different bandwidth
    requirements. It is the world’s most widely deployed network connection
    technology used to send data, video, and voice at ultra high speeds. According to
    the Air National Guard, the Asynchronous Transfer Mode is the Air Force
    network standard for voice, video, and data transport across the wide-area
    network.

    Contract for Asynchronous Transfer Mode Installation. On June 16, 2000,
    the contracting officer awarded a $32.2 million firm-fixed-price contract with one
    base year and three 1-year options to Digicon to establish an Asynchronous
    Transfer Mode network at all Air National Guard flying units. Specifically,
    Digicon was contracted to provide hardware, software, and network integration
    services to 90 base networks. The contract provided a detailed equipment list that
    specified the type and quantities of Nortel equipment to be purchased and
    installed by Digicon. Digicon was to purchase the equipment in the base year and
    complete the installations during the first option year. The last two option years
    would consist solely of lease payments. The contract structure is as follows:

           •   Base year (from June 16, 2000 through October 29, 2000): basic
               lease of hardware $5M;

           •   Option year 1 (from October 30, 2000 through October 29, 2001):
               lease of hardware $7.78M, installation services $3.89M;



                                         1
            •   Option year 2 (from October 30, 2001 through October 29, 2002):
                lease of hardware $7.78M;

            •   Option year 3 (from October 30, 2002 through October 29, 2003):
                lease of hardware $7.78M.

    On September 21, 2001, the Air National Guard notified the contracting officer
    that it did not wish to exercise the remaining option years on the contract with
    Digicon.


Objective

    The objective of this audit was to evaluate the adequacy of the Air National
    Guard decision to not exercise the final two option years on a contract to install
    the Asynchronous Transfer Mode network. We did not review the management
    control program as it related to the objective because we focused on the factors
    leading to the Air National Guard decision to not exercise the remaining option
    years on the contract. See Appendix A for a discussion of the audit scope and
    methodology.




                                         2
Decision To Not Exercise Final Option Years

     On September 21, 2001, the Air National Guard notified the contracting officer of
     its decision to not exercise the remaining options on the contract with Digicon.
     On September 24, 2001, the contracting officer issued the official notice to
     Digicon stating that the Government was providing written notice to discontinue
     the term of lease as of October 30, 2001. In an October 9, 2001, memorandum to
     Digicon, the contracting officer outlined two reasons for the Air National Guard
     decision to not exercise the remaining two option years on the contract:

            •   the desire of the Air National Guard to pursue a technology refresh
                under a new contract, and

            •   the inability of the Air National Guard and Digicon to develop a
                mutually beneficial working relationship.

     The Air National Guard was not required to provide specific reasons for not
     exercising the option. The Federal Acquisition Regulation, Subpart 2.101,
     “Definitions,” defines an option as the unilateral right in a contract by which, for
     a specified time, the Government may elect to purchase additional supplies or
     services called for by the contract, or may elect to extend the term of the contract.
     Further, the contract contained standard option clauses giving the Government the
     unilateral right to exercise each option to extend the term of the contract. Digicon
     entered into that contract knowing the Air National Guard could decide, at the
     renewal decision point, not to exercise the remainder of the contract. Therefore,
     Digicon accepted the potential risk that all options may not be exercised when it
     entered into the contract with the Air National Guard. Details of the two reasons
     that the contracting officer gave for not exercising the remaining options on the
     contract follow.

              Desire To Pursue a Technology Refresh Under a New Contract.
     According to testimonial evidence offered by the Air National Guard, the upgrade
     of hardware was more a need for product availability and sustainability than a
     desire for a technology refresh of equipment. The Air National Guard intended
     for Digicon to purchase all the equipment listed in the equipment list during the
     base year of the contract (from June 2000 through October 2000) and install the
     equipment at the 90 flying units during the first option year (from October 2000
     through October 2001). However, because Digicon purchased the equipment on
     an as-needed basis, equipment became unavailable as it neared the end of its life-
     cycle. As a result, sufficient equipment was available for only 67 of the 90 flying
     units. The Air National Guard stated that, to ensure the network was standard and
     all 90 flying units operated on the same platform, an equipment upgrade was


                                           3
necessary. On October 4, 2001, the contracting officer awarded a 4-year,
$29.5 million contract to Presidio Corporation to install new equipment at the
90 Air National Guard flying units.

        Inability To Develop a Mutually Beneficial Working Relationship.
The Air National Guard contended that during the execution of the Asynchronous
Transfer Mode installation contract, it could not develop a mutually beneficial
working relationship with Digicon. As early as September 18, 2000, the Air
National Guard expressed concern to the contracting officer about Digicon’s
ability and willingness to complete the Asynchronous Transfer Mode installation.
Specifically, the Air National Guard had concerns that Digicon did not have the
personnel qualified to install the Nortel equipment and indicated that Digicon
made negative remarks about Air National Guard personnel and the Nortel
solution selected. The Air National Guard stated that negative remarks made by
Digicon had created negative working relationships at the Air National Guard
units about network installation.

The Air National Guard further stated that it continued to have concerns about
Digicon’s ability to successfully complete the installation at all 90 flying units.
Although the Air National Guard expressed concern about the ability of Digicon
to successfully complete the installation within the contracted time frames or
within budget, the contracting officer did not take any formal action to issue a
show cause notice, cure notice, or any other attempt to terminate the contract for
default. In fact, Digicon was paid in full for the basic contract and first option
year even though the required work was not completed. Air National Guard
personnel stated that the contracting officer discouraged them from issuing any
action to terminate the contract because such action could tie up the networks
with legal obligations and cause mission failures if Digicon protested the
termination.

Conclusion. The Air National Guard provided testimonial evidence as the basis
for not exercising the remaining options on the contract with Digicon. Clearly, a
disagreement existed between the Air National Guard and Digicon and we had to
rely on conflicting statements from both parties. Notwithstanding the conflicting
statements, the Air National Guard made the decision to not exercise the option
and was within its rights, as provided by the Federal Acquisition Regulation and
the express terms of the contract, to make that unilateral decision.




                                     4
Appendix A. Scope and Methodology

Scope

    We interviewed officials from the Air National Guard Command and Control,
    Communications and Computers Division in Arlington, Virginia; the Digicon
    Corporation in Rockville, Maryland; and the 12th Contracting Squadron,
    Randolph Air Force Base, San Antonio, Texas, to obtain a general timeline and
    information on the events that occurred between the Air National Guard and
    Digicon during the time frame of the contract to install the Asynchronous
    Transfer Mode network. We reviewed the Federal, DoD, and Services’
    acquisition regulations to identify criteria that pertain to firm-fixed-price
    contracts, the exercise of options, contract modifications, organizational conflicts
    of interest, and competition. We identified background information on the Air
    National Guard, Digicon, and the Asynchronous Transfer Mode Network. We
    reviewed contract documentation, memorandums, and other correspondence
    provided by the Air National Guard, Digicon, and the contracting office to
    determine the performance of Digicon during the execution of the contract, and to
    determine whether the reasons given by the Air National Guard for not exercising
    the final option years on the contract with Digicon were supported by
    documentation. The documents we reviewed were dated from April 2000 through
    March 2002.

    Limitation to Scope. We did not review the management control program
    because the audit scope was limited to the reasons outlined by the Air National
    Guard and the contracting officer as to why the decision was made to not exercise
    the final option years on the contract with Digicon.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Contract Management high-risk area.


Methodology

    Use of Computer Processed Data. We did not use computer-processed data in
    the performance of this audit.




                                         5
    Use of Technical Assistance. The Technical Assessment Division, Office of the
    Inspector General of the Department of Defense provided assistance on
    evaluating the method used by the Air National Guard to develop the bill of
    materials in the contract.

    Audit Dates and Standards. We performed this economy and efficiency audit
    from December 2001 through June 2002 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and Digicon Corporation, Rockville, Maryland.
    Further details are available upon request.


Prior Coverage

    No prior coverage has been conducted on the subject during the last 5 years.




                                        6
Appendix B. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Superintendent, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Inspector General, 12th Flying Training Wing
   Commander, 12th Contracting Squadron

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Chief, National Guard Bureau
   Director, Air National Guard

Non-Defense Federal Organization
Office of Management and Budget




                                            7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Roscoe G. Bartlett, U.S. House of Representatives




                                           8
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Thomas F. Gimble
Charles M. Santoni
Robert L. Shaffer
Rhonda L. Ragsdale
Rebecca L. Yovich
Emily Richards
Kilolo S. Dunmore
Ann A. Ferrante
Jacqueline N. Pugh
